HHS/OIG-Audit--"Audit of the Pension Plan at a Terminated Medicare Part B Contractor Blue Cross and Blue Shield of Louisiana, (A-07-95-01141)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Part B Contractor
Blue Cross and Blue Shield of Louisiana," (A-07-95-01141)
February 7, 1996
Complete Text of Report is available in PDF format
(242 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of the Pension Plan at
a Terminated Medicare Part B Contractor, Blue Cross and Blue Shield of Louisiana
(Louisiana). We identified Medicare Part B segment assets of $73,562 as of 1986.
Additionally, we updated medicare Part B segment assets from Plan Year 1986
to Plan Year 1990 and identified segment assets of $206,471 as of January 1,
1990. Louisiana was the Medicare Part B subcontractor for the State of Louisiana
until the contract was terminated effective October 1, 1989. Under the terms
of the contract, any differences between the Medicare segment pension assets
and actuarial liability at the time the Medicare segment terminated should be
refunded to the Medicare Program. We recommended that Louisiana refund $194,177
of excess Medicare Part B pension assets resulting from the termination of their
Medicare Part B contract.